IN THE SUPREME COURT OF THE UNITED STATES
No. 19A414-

Lonnie Lee Owens,
Applicant,
v.

Mike Parris, warden
Respondent.

CERTIFICATE OF SERVICE

I, Megan M. Wold, a member of the Supreme Court Bar, hereby certify that
three copies of the attached Application to the Honorable Sonia Sotomayor for a
Further Extension of Time to File a Petition for Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit were served on:
Richard Davidson Douglas
Assistant Attorney General
John H. Bledsoe
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202

Counsel for Respondent
Service was made by first-class mail on November 18, 2019.

Megan M: Wold
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
megan.wold@kirkland.com

